VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                      Inspection of 

                                                                    VA Regional Office 

                                                                      New Orleans, 

                                                                       Louisiana 





                                                                                     July 10, 2014
                                                                                     14-01053-172
                                 ACRONYMS
FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
STAR         Systematic Technical Accuracy Review
TBI          Traumatic Brain Injury
VA           Veterans Affairs
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of VA
                  Regional Office New Orleans, LA

Why We Did This Review                           30 benefit reduction cases due to a lack of
                                                 training and priority on addressing this
The Veterans Benefits Administration             workload.
(VBA) has 56 VA Regional Offices
(VAROs) and a Veterans Service Center            What We Recommend
(VSC) in Cheyenne, Wyoming, that process
disability claims and provide a range of         We recommend the VARO Director develop
services to veterans. We evaluated the New       and implement a plan to ensure staff timely
Orleans VARO to see how well it                  process benefit reductions, review the
accomplishes this mission.                       329 temporary 100 percent disability
                                                 evaluations remaining from our inspection
What We Found                                    universe and take appropriate action, and
                                                 monitor the effectiveness of training on
Overall, VARO staff did not accurately           processing TBI claims and SMC and
process 42 (47 percent) of 90 disability         ancillary benefits. The Director should
claims reviewed. We sampled claims we            implement a plan to ensure SAOs contain all
considered at higher risk of processing          required elements, including timeframes for
errors, thus these results do not represent      implementing the recommendations. The
overall disability claims processing accuracy    Director should also ensure staff receive
at this VARO. Claims processing that lacks       training on how to properly complete SAOs
compliance with VBA procedures risks             and process proposed benefit reductions.
paying inaccurate financial benefits.
                                                 Agency Comments
Specifically, 15 of 30 temporary 100 percent
disability evaluations were inaccurate,          The Director of the New Orleans VARO
generally because management did not             concurred with all recommendations.
prioritize processing of claims requiring        Management’s      planned     actions    are
reduced evaluations. VARO staff processed        responsive and we will follow up as required
10 of 30 traumatic brain injury (TBI) claims     on all actions.
incorrectly due to ineffective training on
processing such complex cases. VARO
staff also incorrectly processed 17 of
30 special monthly compensation (SMC)
and ancillary benefits claims due to a lack of
training and emphasis on addressing all
ancillary issues.                                          LINDA A. HALLIDAY
                                                       Assistant Inspector General
Nine of 11 Systematic Analyses of                       for Audits and Evaluations
Operations (SAOs) were incomplete due to
inadequate oversight. VARO staff also did
not timely or accurately complete 12 of
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. Disability Claims Processing ...................................................................................................2
 

         Finding 1                New Orleans VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................9
 

    II. Management Controls ..........................................................................................................11
 

         Finding 2                VARO Lacked Adequate Oversight To Ensure Complete SAOs ..............11


                                  Recommendations......................................................................................12


         Finding 3                VARO Lacked Oversight and Training To Ensure Correct and 

                                  Immediate Action On Proposed Benefits Reductions ...............................13


                                  Recommendations......................................................................................14


    III. Observations........................................................................................................................16


Appendix A                        VARO Profile and Scope of Inspection .....................................................17
 

Appendix B                        Inspection Summary ..................................................................................19


Appendix C                        VARO Director’s Comments.....................................................................20
 

Appendix D                        OIG Contact and Staff Acknowledgments ................................................23
 

Appendix E                        Report Distribution ....................................................................................24
 
                                                              Inspection of VARO New Orleans, LA



                    INTRODUCTION

Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and the performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other                  Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the New Orleans VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                 1
                                                                      Inspection of VARO New Orleans, LA



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing

Claims              The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy
                    claims, and special monthly compensation (SMC) and ancillary benefits. We
                    evaluated these claims processing issues and their impact on veterans’
                    benefits.
Finding 1 	         New Orleans VARO Could Improve Disability Claims Processing
                    Accuracy

                    The New Orleans VARO did not consistently process temporary 100 percent
                    disability evaluations, TBI-related cases, or entitlement to SMC and ancillary
                    benefits. Overall, VARO staff incorrectly processed 42 of the total 90
                    disability claims we sampled, resulting in 238 improper monthly payments to
                    17 veterans totaling approximately $132,878.
                    We sampled claims related only to specific conditions that we considered at
                    higher risk of processing errors. As a result, the errors identified do not
                    represent the universe of disability claims or the overall accuracy rate at this
                    VARO. The table below reflects errors affecting, and those with the
                    potential to affect, veterans’ benefits processed at the New Orleans VARO.

                 Table 1. New Orleans VARO Disability Claims Processing Accuracy
                                                     Claims               Claims
                                                  Inaccurately         Inaccurately              Total
                                                   Processed          Processed with            Claims
             Type of Claim        Reviewed
                                                    Affecting          Potential To           Inaccurately
                                                   Veterans’          Affect Veterans’         Processed
                                                    Benefits              Benefits
         Temporary 100
         Percent Disability            30               11                    04                           15
         Evaluations
         TBI Claims                    30                2                      8                          10
         SMC and Ancillary
                                       30                6                     11                          17
         Benefits
                 Total                 90               19                     23                          42
         Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at least
         18 months, TBI disability claims completed in the fourth quarter fiscal year (FY) 2013, and SMC and
         ancillary benefits claims completed in FY 2013




VA Office of Inspector General                                                                                 2
                                                              Inspection of VARO New Orleans, LA


Temporary           VARO staff incorrectly processed 15 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. Veterans Benefits Administration (VBA) policy
Disability
Evaluations
                    requires a temporary 100 percent disability evaluation for a veteran’s
                    service-connected disability following surgery or when specific treatment is
                    needed. At the end of a mandated period of convalescence or treatment,
                    VARO staff must request a follow-up medical examination to help determine
                    whether to continue the veteran’s 100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduced compensation payments, Rating Veterans Service
                    Representatives (RVSRs) must inform the beneficiary of the proposed
                    reduction in benefits. In order to provide beneficiaries due process, VBA
                    allows 60 days for the veteran to submit additional evidence to show that
                    compensation payments should continue at their present level. On the
                    65th day following due process notification, action is required to reduce the
                    evaluation and thereby minimize overpayments.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 11 of the 15 processing errors we
                    identified affected benefits and resulted in 119 improper monthly payments
                    to 9 veterans totaling approximately $65,227. These improper payments
                    were paid as monthly benefits to the veterans from June 2009 to January
                    2014. Details on the most significant overpayment and underpayment
                    follow.

                    	 An RVSR proposed reducing a veteran’s temporary 100 percent
                       evaluation.     Staff sent a notification letter to the veteran on
                       December 18, 2012, advising him of the proposed reduction. On
                       February 20, 2013, the VARO received a request for a personal hearing
                       from the veteran in response to the proposed reduction. According to
                       VBA policy, staff should have reduced the evaluation and then scheduled
                       the personal hearing; however, staff kept the evaluation at the same rate
                       pending results from the hearing. As a result of the delay, VA overpaid
                       the veteran approximately $15,284 over a period of 8 months. Monthly
                       benefits will continue to be paid at the 100 percent disability rate if no
                       corrective action is taken.
                    	 An RVSR did not grant a veteran entitlement to an additional special
                       monthly benefit based on evaluations of multiple disabilities, as required



VA Office of Inspector General                                                                  3
                                                               Inspection of VARO New Orleans, LA


                        by VBA policy. As a result, VA underpaid the veteran approximately
                        $8,665 over a period of 26 months. Underpayments could potentially
                        occur every month for the remainder of the veteran’s life until VARO
                        staff take the appropriate action to correct this error.

                    The remaining 4 of the total 15 errors had the potential to affect veterans’
                    benefits. Neither VBA nor we could determine whether the evaluations
                    should have continued in three of these four cases because the veterans’
                    claims folders did not contain medical evidence needed to evaluate each
                    case. For the remaining case, evidence showed continued entitlement;
                    however, there was no control in place to ensure staff would schedule a
                    medical reexamination as required. Since VBA awarded a temporary
                    100 percent disability evaluation, the control is necessary to gain reasonable
                    assurance that financial stewardship over these funds is adequate.

                    Generally, errors occurred because VSC management did not prioritize
                    processing the temporary 100 percent claims that required reduced
                    evaluations. Delays ranged from 2 months to 10 months, and an average of
                    6 months elapsed from the time staff should have reduced the temporary
                    100 percent evaluations until they ultimately took action. As of January
                    2014, staff had not taken the required action on five cases. Management
                    stated that instead of processing benefit reductions, they placed emphasis on
                    processing other workloads that VBA tracks and measures for timeliness. As
                    a result, veterans may receive benefit payments in excess of their eligibility
                    when benefit reductions are warranted but not processed. We provided
                    VARO management with 329 claims remaining from our universe of 359 for
                    its review to determine if action is required.

                    VARO management concurred with six errors we identified and did not
                    provide a concurrence or non-concurrence with nine errors involving delays.
                    Management responded, “Workload priorities and the timeliness of
                    processing is an issue that should be discussed between leadership at the
                    headquarters level for both OIG and VBA.” It is clearly within the OIG’s
                    purview to provide oversight of this high-risk area of temporary 100 percent
                    disability evaluation processing. Management’s lack of response is not
                    helpful in addressing the errors we identify as a means of improving claims
                    processing and ensuring accurate benefits delivery.
Follow-Up to        In our previous report, Inspection of the VA Regional Office, New Orleans,
Prior VA OIG        Louisiana (Report No. 11-00238-184, June 6, 2011), VARO staff incorrectly
Inspection
                    processed 24 of 30 temporary 100 percent disability evaluations we
                    reviewed. The most frequent processing errors occurred because staff did
                    not enter suspense diaries in the electronic system to ensure they received
                    reminder notifications to schedule medical reexaminations to support the
                    evaluations. VARO management did not provide oversight to ensure VSC
                    staff entered the suspense diaries. The VARO concurred with our
                    recommendation to review the 196 temporary 100 percent evaluations


VA Office of Inspector General                                                                   4
                                                               Inspection of VARO New Orleans, LA


                    remaining from our inspection universe. Also, the Director stated the VARO
                    would follow national guidance to ensure staff enter suspense diaries into the
                    electronic record.      The OIG closed the recommendations on
                    November 15, 2011.

                    During our February 2014 inspection, we identified one case from
                    July 2007 where staff did not enter a suspense diary as required. As we only
                    found one such error, which predated both inspections, we determined the
                    VSC’s actions in response to our previous recommendations appeared to be
                    effective.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our report, Systemic Issues Reported
                    During Inspections at VA Regional Offices (Report No. 11-00510-167, May
                    18, 2011), VBA agreed to develop and implement a strategy for ensuring the
                    accuracy of TBI claims decisions. In May 2011, VBA provided guidance to
                    VARO Directors to implement a policy requiring a second signature on each
                    TBI case an RVSR evaluates until the RVSR demonstrates 90 percent
                    accuracy in TBI claims processing. The policy indicates second-signature
                    reviewers come from the same pool of staff as those used to conduct local
                    station quality reviews.

                    We determined VARO staff incorrectly processed 10 of 30 TBI claims—
                    2 affected veterans’ benefits and resulted in overpayments totaling
                    approximately $14,040. These errors represented 31 improper monthly
                    payments from February 2012 to January 2014. Details on the two errors
                    affecting veterans’ benefits follow:

                    	 An RVSR over-evaluated a veteran’s TBI residual condition.
                       Specifically, the medical evidence did not warrant an increased
                       evaluation. As a result, the veteran was overpaid approximately
                       $12,269 over a period of 23 months. This was the most significant
                       overpayment.
                    	 An RVSR incorrectly established separate evaluations for a veteran’s
                       TBI and a mental disorder when the VA examiner could not differentiate
                       which symptoms were attributable to each condition. VBA policy
                       requires staff to assign a single evaluation when the VA examiner cannot
                       separate symptoms of TBI and a coexisting mental disorder. As a result



VA Office of Inspector General                                                                   5
                                                               Inspection of VARO New Orleans, LA


                        of using the insufficient medical examination report, the veteran was
                        overpaid approximately $1,771 over a period of 8 months.

                    The remaining eight processing errors had the potential to affect veterans’
                    benefits. In six cases, VSC staff evaluated TBI residuals using insufficient
                    VA medical examination reports. Specifically, the examination reports
                    contained conflicting information, were missing pertinent questions, or
                    lacked an initial TBI diagnosis by a required medical specialist. Neither
                    VBA nor we could determine whether the current disability evaluations were
                    correct because the veterans’ claims folders did not contain sufficient
                    medical evidence needed to evaluate each case.

                    In the two remaining cases, RVSRs improperly evaluated TBI residual
                    conditions by assigning a separate evaluation for a coexisting mental
                    condition. In such cases, VSC staff must assign a single evaluation for both
                    conditions that were the result of a veteran's overall mental functioning per
                    VBA policy. These errors did not affect the veterans’ current monthly
                    benefits but have the potential to affect future benefit payments if the
                    veterans’ other service-connected disabilities worsen or if service connection
                    is granted for new disabilities.

                    Generally, the TBI processing errors we identified occurred because VSC
                    staff misinterpreted VBA policy for processing TBI claims. VARO
                    management concurred with three errors and non-concurred with seven. For
                    those seven, VARO management did not concur because they felt there was
                    sufficient evidence to properly decide the claims. However, our review
                    revealed otherwise. For example:

                    	 An RVSR prematurely denied a TBI claim without obtaining a TBI
                       medical examination report.
                    	 A VA nurse practitioner provided an initial TBI diagnosis. However,
                       policy states the diagnosis must be provided by a medical doctor.
                    	 An RVSR used an insufficient medical examination to evaluate the
                       severity of headaches related to a TBI. The examination was insufficient
                       because there were pertinent questions missing from the examination,
                       including whether the veteran had additional diagnoses such as migraine
                       or tension headaches.

                    VARO staff and management confirmed they found TBI regulations
                    complex. Based on interviews with staff and a review of VARO training
                    records, only one RVSR received TBI-related training from March 2013 to
                    the period of our review. In February 2014, RVSRs received training on this
                    topic. However, we did not assess the effectiveness of that training because
                    staff had completed the claims we reviewed prior to receiving the training.
                    As a result of staff misinterpretations of VBA policy for processing TBI
                    claims, veterans may not have always received correct benefits decisions.


VA Office of Inspector General                                                                   6
                                                                Inspection of VARO New Orleans, LA


Follow-Up to        In our previous report, Inspection of the VA Regional Office, New Orleans,
Prior VA OIG        Louisiana (Report No. 11-00238-184, June 6, 2011), we also determined
Inspection          errors in processing TBI claims occurred due to RVSRs prematurely
                    evaluating TBI-related disabilities based on insufficient medical examination
                    reports. In response to our recommendations, the VARO Director agreed to
                    establish an additional level of review for all TBI claims prior to finalizing
                    rating decisions. The OIG closed this recommendation based on the
                    VARO’s Quality Review Team providing second-level reviews of TBI
                    claims processing.

                    Although none of the TBI errors we identified during our current inspection
                    underwent second-level review by the Quality Review Team, we continued
                    to identify TBI claims processing errors related to staff using insufficient
                    medical examinations. We concluded the second-level reviews alone were
                    not effective in reducing processing errors.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation
and Ancillary
                    level of disability present. Therefore, VBA established SMC to recognize
Benefits            the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, or
                    the need to rely on others for daily life activities, like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist:

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under Title 38, United States Code,
                       Chapter 35
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant


VA Office of Inspector General                                                                     7
                                                                 Inspection of VARO New Orleans, LA


                    	 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We focused our review on
                    whether VARO staff accurately processed entitlement to SMC and ancillary
                    benefits associated with anatomical loss, loss of use of two or more
                    extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 17 of 30 claims involving SMC and
                    ancillary benefits—6 affected veterans’ benefits and resulted in
                    underpayments to veterans totaling approximately $38,996 and an
                    overpayment totaling $14,615. These errors represented 88 improper
                    monthly payments, processed from February 2011 until January 2014.
                    Details on the most significant underpayment and the overpayment follow:

                    	 An RVSR assigned an incorrect effective date for entitlement to SMC
                       along with an incorrect level of SMC. As a result, VA underpaid the
                       veteran approximately $20,498 over a period of 2 years and 11 months.
                    	 An RVSR assigned an incorrect effective date for entitlement to SMC for
                       bilateral blindness. As a result, VA overpaid the veteran $14,615 over a
                       period of 5 months.

                    The remaining 11 errors had the potential to affect veterans’ benefits.
                    Summaries of those errors follow:

                    	 Six errors involved RVSRs that failed to grant, or improperly granted,
                       ancillary benefits.
                        o	   In two cases, staff failed to grant entitlement to specially adapted
                             housing, a benefit worth up to $67,555.
                        o	   Staff incorrectly granted entitlement to both specially adapted
                             housing and special home adaptation grants in two other cases.
                             These grants are worth up to $13,511 each.
                        o	   Staff, in one case, did not correctly grant entitlement to a special
                             home adaptation grant.
                        o	   In another case, staff failed to grant entitlement to automobile and
                             adaptive equipment, a benefit worth up to $19,817, as well as
                             specially adapted housing.

                    	 Five errors involved RVSRs that incorrectly entered, or failed to enter,
                       hospital codes for veterans’ SMC into the electronic system.

                        o	   In three cases, staff did not enter the hospital codes correctly.
                        o	   In the remaining two cases, staff did not enter any of the hospital
                             codes as required.



VA Office of Inspector General                                                                    8
                                                              Inspection of VARO New Orleans, LA


                    Generally, VSC staff must reduce veterans’ SMC payments when they are
                    hospitalized at government expense. Hospital codes are used to determine
                    the correct amount to pay veterans when they are hospitalized. In the five
                    cases we identified, the improper hospital codes could have resulted in
                    erroneous adjustments of the veterans’ payments upon hospitalization.

                    Errors related to SMC were generally due to a lack of training. The VARO
                    provided training records that revealed staff received SMC training in
                    January 2014. However, prior to that date, the last time staff received SMC
                    training was in FY 2011. VSC staff we interviewed indicated the training
                    was not extensive enough to cover all of the complexities associated with
                    SMC. For example, the training did not address how to properly assign
                    effective dates for payment when evaluating the residual disabilities of a
                    stroke.

                    Errors related to ancillary benefits were generally due to a lack of emphasis
                    for staff to conduct thorough reviews to determine applicability of any and
                    all ancillary benefits as required. Generally, errors related to ancillary
                    benefits occurred in prior rating decisions; however, local quality reviews
                    only hold RVSRs accountable for errors identified in the rating decisions
                    currently under review. The reviews may not include entitlement to
                    unclaimed ancillary benefits. VSC management stated it hoped veterans
                    have good representatives to help them with their claims, especially if the
                    VARO is not notifying them of their entitlement to potential ancillary
                    benefits.

                    The VARO concurred with five of the errors we identified, and partially
                    concurred with two. VARO management did not concur with 10 errors;
                    however, they stated they would take corrective actions to fix 9 of these
                    errors.

                    Recommendations

                    1.	 We recommend the New Orleans VA Regional Office Director conduct a
                        review of the 329 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.

                    2.	 We recommend the New Orleans VA Regional Office Director
                        implement a plan to assess the effectiveness of their recent training on
                        processing traumatic brain injury claims and special monthly
                        compensation benefits.

                    3.	 We recommend the New Orleans VA Regional Office Director
                        implement a plan to emphasize that rating staff address all ancillary
                        benefits, even if not expressly claimed, to ensure veterans receive
                        maximum entitlement to benefits.



VA Office of Inspector General                                                                  9
                                                             Inspection of VARO New Orleans, LA


Management          The VARO Director concurred with our recommendations and will complete
Comments            the review of 329 temporary 100 percent disability evaluations by October
                    31, 2014. Local quality review specialists will conduct a review of all TBI
                    and SMC cases completed through July to determine the effectiveness of
                    recent training in these subjects. Further, VARO staff will complete the
                    training entitled, “Ancillary Benefits and Special Purposes” by
                    July 31, 2014.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                              10
                                                              Inspection of VARO New Orleans, LA


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC Manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

Finding 2           VARO Lacked Adequate Oversight To Ensure Complete SAOs

                    Nine of the 11 SAOs were missing required elements such as specific
                    timeframes for completion of recommendations. VSC management did not
                    provide adequate guidance or recent training to ensure staff completed SAOs
                    in accordance with VBA policy. As a result, management lacked sufficient
                    information to adequately identify existing and potential problems needing
                    corrective actions to improve VSC operations.

                    Management did not ensure staff included all required elements such as
                    specific timeframes for completion of recommendations in the SAOs because
                    they did not think these elements would provide additional support needed
                    for completion of the recommendations. Management stated it last provided
                    VSC staff with SAO training more than one year prior to our inspection, and
                    felt the SAOs essentially contained sufficient analyses without the missing
                    required elements. Although SAOs generally contained sufficient analyses
                    based on appropriate data and identified deficient areas, there was a lack of
                    VSC management guidance to ensure staff completed all SAOs as required.

                    The Claims Processing Timeliness SAO was an example of an incomplete
                    SAO. As discussed above, we identified instances among the temporary
                    100 percent disability evaluations we reviewed where VARO staff did not
                    take timely action to reduce benefits as appropriate. If the New Orleans
                    VARO had completed the Claims Processing Timeliness SAO, it could have
                    identified this problem and developed recommendations to address this issue
                    before we did as part of our review.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, New Orleans,
Prior VA OIG        Louisiana (Report No. 11-00238-184, June 6, 2011), we found that 1 of the
Inspection
                    12 mandated SAOs was not completed timely per the annual schedule. We
                    did not consider the error rate significant, so we made no recommendation




VA Office of Inspector General                                                                11
                                                              Inspection of VARO New Orleans, LA


                    for improvement in this area. During our February 2014 inspection, staff
                    timely submitted all 11 required SAOs.

                    Recommendations
                    4.	 We recommend the New Orleans VA Regional Office Director
                        implement a plan to ensure Systematic Analyses of Operations contain
                        all required elements including specific timeframes for completion of
                        recommendations.

                    5.	 We recommend the New Orleans VA Regional Office Director ensure
                        that staff receive training on VBA policy regarding the purpose and
                        requirements for completing Systematic Analyses of Operations.

Management          The VARO Director concurred with our recommendations. The Director
Comments            indicated all SAOs were completed timely and will ensure future SAOs
                    address each item, or will note why an item was not addressed.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.

Benefits            VBA policy provides for compensation to veterans for conditions they
Reductions          incurred or aggravated during military service. The amount of monthly
                    compensation to which a veteran is entitled may change because his or her
                    service-connected disability may improve. Improper payments associated
                    with benefit reductions generally occur when beneficiaries receive payments
                    to which they are not entitled because VAROs do not take the action required
                    to ensure correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefit reductions. The new policy no longer
                    included the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.



VA Office of Inspector General                                                                12
                                                                Inspection of VARO New Orleans, LA


Finding 3 	         VARO Lacked Oversight and Training To Ensure Correct and
                    Immediate Action On Proposed Benefits Reductions

                    VARO staff incorrectly processed 12 of 30 claims involving proposed
                    benefit reductions. These errors occurred due to a lack of emphasis on
                    timely processing and a lack of training on procedures for reducing benefits.
                    Processing inaccuracies resulted in overpayments totaling approximately
                    $40,014 and underpayments totaling approximately $4,280, representing
                    78 improper monthly payments to 11 veterans from March 2012 to January
                    2014.

                    Processing delays occurred in 9 of 30 claims that required rating decisions to
                    reduce or discontinue benefits. Eight of the cases showed claims processing
                    delays ranging from 1 to 18 months. An average of 8 months elapsed from
                    the time staff should have taken action to reduce the evaluations for these
                    9 cases. In the case with the most significant overpayment and delay, VSC
                    staff sent a letter to the veteran on November 23, 2011, proposing reducing
                    benefits for a bilateral knee condition. The due process period expired on
                    January 27, 2012. However, staff did not take action to reduce the
                    evaluation until September 4, 2013. As a result, VA overpaid the veteran
                    $18,104 over a period of 20 months.

                    Generally, the delays occurred because VARO management did not view this
                    workload as a priority.       Because of national changes to workload
                    management, VSC leadership did not place emphasis on processing benefit
                    reductions in 2013. Rather, it concentrated on national priorities that
                    included processing claims pending over 2 years old. Interviews with
                    management and staff confirmed there was no emphasis on following
                    through with proposed rating reductions timely.

                    Also, VARO staff incorrectly reduced evaluations in 4 of 30 claims we
                    reviewed. Three of these errors led to underpayments totaling approximately
                    $4,280 and an overpayment totaling approximately $3,323. One case had the
                    potential to affect benefits as the incorrect reduction did not currently impact
                    the veteran’s payments. Following are details on the four errors:

                    	 In the case of the most significant underpayment, an RVSR reduced a
                       veteran’s compensation for prostate cancer based on remission of the
                       condition; however, the veteran provided medical evidence showing the
                       cancer was active, thus not warranting a reduction. As a result of the
                       error, VA underpaid the veteran approximately $3,734 over a period of
                       2 months.
                    	 In one case, an RVSR did not properly consider the medical evidence and
                       incorrectly proposed reducing a veteran’s evaluation for headaches. The
                       medical evidence showed no change in the severity of the veteran’s
                       headaches, therefore no reduction was warranted.


VA Office of Inspector General                                                                   13
                                                                Inspection of VARO New Orleans, LA


                    	 In another case, an RVSR incorrectly proposed reducing a veteran’s
                       evaluation for lung cancer. The RVSR improperly used a personal
                       interpretation of the medical evidence to determine Pulmonary Function
                       Test results. Rather, the RVSR should have used the results provided by
                       the examining physician.
                    	 In the fourth case, an RVSR did not properly discontinue entitlement to
                       SMC when the medical evidence revealed the veteran no longer met the
                       requirement for this additional benefit.

                    Generally, these incorrect reductions occurred because rating staff had not
                    received any recent training on benefit reduction procedures. A review of
                    the VARO’s training history revealed that staff had not been trained on
                    reduction ratings since September 2011. Management scheduled training to
                    go over reduction ratings in 2013, but canceled it due to competing
                    requirements to work on a nationwide, priority VA project.

                    Of the total 12 errors we identified, VARO management concurred with
                    3 and partially concurred with 2 errors. Management’s responses noted they
                    were directed by VBA to not comment on delays in processing benefit
                    reductions. Although we showed VARO management and staff VBA criteria
                    requiring action on the 65th day following due process notification, they did
                    not concur or non-concur with the remaining seven benefits reduction
                    processing delays. In these cases, VARO managers noted, "Workload
                    priorities and the timeliness of processing is an issue that should be discussed
                    between leadership at the headquarters level for both the OIG and VBA."
                    Prioritization of this type of work is needed to minimize overpayments and
                    ensure sound financial stewardship of veterans’ monetary benefits.

                    Recommendations

                    6.	 We recommend the New Orleans VA Regional Office Director develop
                        and implement a plan to ensure staff prioritize processing of benefit
                        reductions at the expiration of due process as required.

                    7.	 We recommend the New Orleans VA Regional Office Director provide
                        training on the proper procedures for benefit reductions and implement a
                        plan to assess the effectiveness of that training.

Management          The VARO Director concurred with our recommendations.                   On
Comments            May 13, 2014, VBA implemented a plan to ensure action is taken within
                    180 days of these items appearing on VBA’s workload notification report or
                    when future examination indicators mature. The Director indicated the New
                    Orleans VARO will develop a plan in accordance with the national guidance
                    by June 18, 2014. Further, training will be provided to staff regarding the
                    implementation of this plan by June 30, 2014.




VA Office of Inspector General                                                                   14
                                                       Inspection of VARO New Orleans, LA


OIG Response	       The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                        15
                                                               Inspection of VARO New Orleans, LA


                    III. Observations

                    On June 20, 2014, we issued a Management Advisory Memorandum alerting
                    the Under Secretary for Benefits that Fast Letter 13-10, “Guidance on Date
                    of Claims Issues,” could be misapplied by VAROs to manipulate dates of
                    claims. Specifically, when staff identify a claim located in a veteran’s claims
                    folder that was not previously adjudicated, the guidance directed staff to
                    establish the date of claim as the date the claim was discovered. As a result,
                    VBA performed an analysis that identified the New Orleans VARO as an
                    outlier when comparing the percent of discovered claims to the total current
                    inventory of claims. Upon further review, VBA determined the VARO had
                    processed 124 unadjudicated claims from a universe of 20,081 original
                    claims.

                    The Under Secretary for Benefits took action to suspend the use of Fast
                    Letter 13-10, “Guidance on Date of Claims Issues,” nationwide on
                    June 27, 2014. As a result of that action, this report does not offer a
                    recommendation to take corrective action.




VA Office of Inspector General                                                                  16
                                                              Inspection of VARO New Orleans, LA


Appendix A          VARO Profile and Scope of Inspection

Organization        The New Orleans VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; public affairs; and outreach to homeless, elderly, minority, and
                    women veterans.

Resources           As of January 2014, the New Orleans VARO reported a staffing level of
                    168.8 full-time employees. Of this total, the VSC had 128.8 employees
                    assigned.

Workload            As of January 2014, VBA reported the New Orleans VARO had
                    9,947 pending compensation claims. On average claims were pending
                    161.6 days—46.6 days more than the national target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of service to veterans. In February 2014, we
                    evaluated the New Orleans VARO to see how well it accomplishes this
                    mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (8 percent) of 359 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented instances where VBA staff had granted temporary 100 percent
                    disability evaluations for at least 18 months as of December 12, 2013. This
                    is generally the longest period a temporary 100 percent disability evaluation
                    may be assigned without review, according to VBA policy. We provided
                    VARO management with 329 claims remaining from our universe of 359 for
                    its review. We reviewed 30 (22 percent) of 135 disability claims related to
                    TBI that the VARO completed from July through September 2013. We also
                    examined 30 (41 percent) of 74 veterans claims involving entitlement to
                    SMC and ancillary benefits that VARO staff completed from
                    October 1, 2012, through September 30, 2013.

                    Prior to VBA consolidating Fiduciary Activities nationally, each VARO was
                    required to complete 12 SAOs. However, following the Fiduciary Activities
                    consolidation, the VAROs were only required to complete 11 SAOs.
                    Therefore, we reviewed 11 SAOs related to VARO operations. Additionally,



VA Office of Inspector General                                                                17
                                                               Inspection of VARO New Orleans, LA


                    we looked at 30 (31 percent) of 96 completed claims involving proposed
                    reductions in benefits from July through September 2013.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.
Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any were missing from key fields, included calculation
                    errors, or were outside the time frame requested. We assessed whether the
                    data contained obvious duplication of records, alphabetic or numeric
                    characters in incorrect fields, or illogical relationships among data elements.
                    Further, we compared veterans’ names, file numbers, Social Security
                    numbers, dates of claim, and decision dates as provided in the data received
                    with information contained in the 120 claims folders we reviewed related to
                    temporary 100 percent disability evaluations, TBI claims, SMC and ancillary
                    benefits, and completed claims involving proposed benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    This report references VBA’s STAR data. As reported by VBA’s STAR
                    program as of January 2014, the overall claims-based accuracy of the
                    VARO’s compensation rating-related decisions was 92.5 percent. We did
                    not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                  18
                                                                      Inspection of VARO New Orleans, LA


Appendix B           Inspection Summary

                     Table 2 reflects the operational activities inspected, applicable criteria, and
                     whether or not we had reasonable assurance of VARO compliance.

                        Table 2. New Orleans VARO Inspection Summary
     Operational                                                                       Reasonable
      Activities                                 Criteria                              Assurance of
      Inspected                                                                        Compliance
   Disability
   Claims
   Processing
   Temporary           Determine whether VARO staff properly reviewed
   100 Percent         temporary 100 percent disability evaluations. (38 CFR
   Disability          3.103(b)) (38 CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR                 No
   Evaluations         Part IV, Subpart ii, Chapter 2, Section J) (M21-1MR Part
                       III, Subpart iv, Chapter 3, Section C.17.e)
   Traumatic           Determine whether VARO staff properly processed
   Brain Injury        claims for service connection for all disabilities related to
                                                                                            No
   Claims              in-service TBI. (FL 08-34 and 08-36) (Training Letter
                       09-01)
   Special Monthly     Determine whether VARO staff properly processed SMC
   Compensation        and correctly granted entitlement to ancillary benefits.
                                                                                            No
   and Ancillary       (38 CFR 3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63,
   Benefits            and 4.64) (M21-1MR IV.ii.2.H and I)
   Management
   Controls
   Systematic          Determine whether VARO staff properly performed
   Analysis of         formal analyses of their operations through completion of            No
   Operations          SAOs. (M21-4, Chapter 5)
   Proposed            Determine whether VARO staff timely and accurately
   Benefits            processed disability evaluation reductions or
   Reductions          terminations. (38 CFR 3.103(b)(2), 38 CFR 3.105(e), 38
                       CFR 3.501, M21-1MR.IV.ii.3.A.3.e, M21­                               No
                       1MR.I.2.B.7.a, M21-1MR.I.2.C, M21-1MR.I.ii.2.f, M21­
                       4, Chapter 2.05(f)(4), (Compensation & Pension Service
                       Bulletin, October 2010)
   Source: VA OIG
   CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                        19
                                                                           Inspection of VARO New Orleans, LA


Appendix C              VARO Director’s Comments



              Department of                                      Memorandum
              Veterans Affairs

      Date:        June 18, 2014

      From:        Director, VA Regional Office New Orleans, Louisiana

      Subj:        Inspection of the VA Regional Office, New Orleans, Louisiana

        To:        Assistant Inspector General for Audits and Evaluations (52)


              1.   The New Orleans VARO’s comments are attached on the OIG Draft Report:
                   Inspection of the VA Regional Office, New Orleans, Louisiana.

              2.   Please refer questions to Mr. Steve Kelly, Veterans Service Center Manager, at
                   (504) 619-4560.


                    (original signed by:)
                    Mark Bologna 

                    Director 


                    Attachment




VA Office of Inspector General                                                                            20
                                                                       Inspection of VARO New Orleans, LA


                                                                                                   Attachment

New Orleans (321)                                                                               June 18, 2014

OIG Recommendations:

Recommendation 1: We recommend the New Orleans VA Regional Office Director conduct a review of
the 329 temporary 100 percent disability evaluations remaining from our inspection universe and take
appropriate action.

New Orleans RO Response: Concur

The New Orleans Regional Office has reviewed 244 of the 329 temporary 100 percent disability
evaluations identified. The RO is in the process of reviewing the remaining 85 evaluations. We will
continue to get a new listing of temporary 100 percent each month and will work these as received.

Target Completion Date: October 31, 2014

Recommendation 2: We recommend the New Orleans VA Regional Office Director implement a plan to
assess the effectiveness of their recent training on processing traumatic brain injury claims and special
monthly compensation benefits.

New Orleans RO Response: Concur

Local Quality Review Specialists will conduct a review of all TBI and SMC cases completed through July
to determine the effectiveness of the training held on these subjects during the Fiscal Year. Any errors
noted will result in on the spot training.

Target Completion Date: September 30, 2014

Recommendation 3: We recommend the New Orleans VA Regional Office Director implement a plan to
emphasize that rating staff address all ancillary benefits, even if not expressly claimed, to ensure
veterans receive maximum entitlement to benefits.

New Orleans RO Response: Concur

All rating staff will be required to complete the training entitled, “Ancillary Benefits and Special Purposes”

Target Completion Date: July 31, 2014

Recommendation 4: We recommend the New Orleans VA Regional Office Director implement a plan to
ensure Systematic Analyses of Operations contain all required elements including specific timeframes for
completion of recommendations.

New Orleans RO Response: Concur

The SAOs were completed timely. Additionally, the items identified during the audit were not material to
the outcomes nor to the recommendations in the SAOs. VBA workload priorities are set at a national
level. The issue of timeliness in processing particular cases (i.e., temporary 100 percent disability claims)
is addressed separately in the report and in a separate recommendation. The New Orleans Regional
Office concurred with the recommendation related to timely processing of temporary 100 percent
disability claims. The New Orleans Regional Office will ensure future SAOs address each item, or will
note why an item was not addressed.




VA Office of Inspector General                                                                              21
                                                                 Inspection of VARO New Orleans, LA


Recommendation 5: We recommend the New Orleans VA Regional Office Director ensure that staff
received training on VBA policy regarding the purpose and requirements for completing Systematic
Analyses of Operations.

New Orleans RO Response: Concur

The New Orleans Regional Office Director provided SAO training on May 29, 2014, to staff members
responsible for reviewing and completing SAOs. This training highlighted OIG’s findings and provided
instructions on how to integrate the feedback into the SAO process.

Recommendation 6: We recommend the New Orleans VA Regional Office Director develop and
implement a plan to ensure staff prioritize processing of benefit reductions at the expiration of due
process as required.

New Orleans RO Response: Concur

On May 13, 2014, VBA implemented a plan to ensure appropriate action is taken on all temporary 100-
percent disability evaluations within 180 days of inclusion on the TRAP report or maturation of VBA’s
future examination indicator that is established when the Veteran is awarded a temporary 100-percent
evaluation.

Since February 6, 2014, when guidance regarding this plan was issued to VBA regional offices, the
inventory of pending reviews decreased by 57 percent, and the number of these reviews pending more
than 180 days decreased by 65 percent (data as of April 26, 2014). The New Orleans Regional Office
will develop a plan in accordance with the national guidance by June 18, 2014

Recommendation 7: We recommend the New Orleans VA Regional Office Director provide training on
the proper procedures for benefit reductions and implement a plan to assess the effectiveness of that
training.

New Orleans RO Response: Concur

The New Orleans Regional Office will conduct training on the local plan indicated in Recommendation 6
by June 30, 2014.




VA Office of Inspector General                                                                    22
                                                     Inspection of VARO New Orleans, LA


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Daphne Brantley
                                         Brett Byrd
                                         Lee Giesbrecht
                                         Scott Harris
                                         Jeffrey Myers
                                         David Piña
                                         Rachel Stroup
                                         Nelvy Viguera Butler
                                         Diane Wilson




VA Office of Inspector General                                                       23
                                                             Inspection of VARO New Orleans, LA


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office New Orleans Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Mary L. Landrieu, David Vitter
                    U.S. House of Representatives: 	Charles W. Boustany Jr., William Cassidy,
                     John Fleming, Vance McAllister, Cedric Richmond, Steve Scalise




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              24
